IN THE SUPREME COURT OF THE UNITED STATES
FOUNDATION FOR INDIVIDUAL RIGHTS IN
EDUCATION, ET AL.
Petitioner
vs.

No:

21-0084

VICTIM RIGHTS LAW CENTER, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
August 18, 2021
cc:

See Attached List

WILLIAM S. CONSOVOY
CONSOVOY MCCARTHY PLLC
1600 WILSON BLVD.
SUITE 700
ARLINGTON, VA 22209
CODY BARNETT
ALLIANCE DEFENDING FREEDOM
15100 N. 90TH STREET
SCOTTSDALE, AZ 85260
MALLORY READER
LIBERTY JUSTICE CENTER
141 W. JACKSON ST.
SUITE 1065
CHICAGO, IL 60604
WILLIAM E. TRACHMAN
MOUNTAIN STATES LEGAL
FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD, CO 80227
CHARLES JUSTIN COOPER
COOPER & KIRK PLLC
1523 NEW HAMPSHIRE AVENUE,
N.W.
WASHINGTON, DC 20036
DAVID HODGES
INSTITUTE FOR JUSTICE
901 N. GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203

